)
!>■

APPENDIX A

THE APRIL 22, 2020, JUDGMENT OF THE
UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF MICHIGAN APRIL 17,
2018, DENYING PETITIONER’S PETITION FOR
A WRIT OF HABEAS CORPUS

♦ r--

1

*

T

Case 4:19-cv-10091-MFL-EAS ECF No. 11, PagelD.1273 Filed 04/22/20 Page 1 of 18

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
WILLIAM RANDOLPH KING,
Case No. 19-cv-10091
Hon. Matthew F. Leitman

Petitioner,
v.

THOMAS WINN,
Respondent.

OPINION AND ORDER m DENYING PETITION FOR WRIT OF
HABEAS CORPUS (ECF No. IT (2) DENYING A CERTIFICATE OF
APPEALABILITY. AND 13) GRANTING PERMISSION TO APPEAL
IN FORMA PAUPERIS
Michigan prisoner William Randolph King has filed a pro se petition for a
writ of habeas corpus under 28 U.S.C. § 2254. (See Pet., ECF No. 1.) In September
2016, a jury in the Wayne County Circuit Court convicted King of first-degree
criminal sexual conduct, MICH. COMP. LAWS § 750.520b(l)(c), kidnapping,
MICH. COMP. LAWS § 750.349, and third-degree criminal sexual, MICH. COMP.
LAWS § 750.520d(l)(b). The state trial court then sentenced him as a fourth-time
habitual felony offender to 40 to 75 years in prison for the first-degree criminal
sexual conduct conviction and to lesser concurrent terms for the other convictions.
King raises three claims in his petition: (1) the prosecution withheld
exculpatory evidence from the defense when it failed to timely submit a pubic hair
1

Case 4:19-cv-10091-MFL-EAS ECF No. 11, PagelD.1274 Filed 04/22/20 Page 2 of 18

for DNA testing, (2) the trial court erred when it failed to instruct the jury to presume
that test results on the pubic hair would have been unfavorable to the prosecution,
and (3) the trial court incorrectly scored the sentencing guidelines and sentenced him
in violation of the Eighth Amendment. (See id)
The Court has carefully reviewed the petition and will deny relief because the
Michigan Court of Appeals’ adjudication of King’s claims did not result in an
unreasonable application of clearly established Supreme Court law. The Court will
also deny King a certificate of appealability, but it will grant him permission to
appeal in forma pauperis.
I
The charges against King arose from a cold-case sexual assault investigation.
The complainant, Erin Long, flagged down police officers on August 5, 2005. She
told them that she had just escaped from a van after being raped. Long was treated
at a local hospital, and samples were taken for a rape kit. The rape kit was sent to the
Detroit Police Department (the “DPD”), where it sat untested for almost ten years.
In 2015, the Michigan State Police (the “MSP”) agreed to assist the DPD with
its large backlog of untested rape kits. The MSP then sent Long’s kit to a private
firm, Bode Technology Group, for testing. Bode tested the kit, and the test produced
a DNA profile for sperm cells found on Long’s vaginal swab. The profile was sent
back to the MSP, and the MSP then ran the DNA profile in the Federal Bureau of
2

Case 4:19-cv-10091-MFL-EAS ECF No. 11, PagelD.1275 Filed 04/22/20 Page 3 of 18

Investigation’s CODIS DNA database. The sample matched King’s CODIS profile.
Police subsequently obtained a known DNA sample from King, and it too matched
the sperm sample from Long’s rape kit.
At around this same time, a second lab technician investigating a different
DPD case identified King as a match to a DNA sample taken from another
complainant, Nichole McClintock. McClintock reported being raped by two men in
Detroit on August 16, 2014. A foreign pubic hair was also found during
McClintock’s rape examination. That hair was not tested at that time because, unlike
the sample that matched to King, it required more specialized mitochondrial DNA
testing.
The prosecutor subsequently charged King with six counts of criminal sexual
conduct and kidnapping with respect to Long’s allegations. But the prosecutor did
not charge King with assaulting McClintock.

Instead, the prosecutor added

McClintock as an other-acts witness in Long’s case. The prosecutor’s theory was
that in both cases, King demonstrated a common scheme or plan by targeting
vulnerable young women found in public places who were drug abusers. The defense
theory, on the other hand, was that both Long and McClintock were sex workers.
King claimed that he paid Long for consensual sex and that he and he and his son
had consensual sex with McClintock.

3

Case 4:19-cv-10091-MFL-EAS ECF No. 11, PagelD.1276 Filed 04/22/20 Page 4 of 18

Prior to trial, the prosecution disclosed to the defense the existence of the
foreign pubic hair that was found in McClintock’s rape kit. King’s counsel then
asked the trial court to order a lab to conduct a “forensic evaluation” of the hair on
the basis that the results of that test may be “exculpatory evidence.” (ECF No. 9-12,
PageID.361.) The prosecutor told the court that it was her belief that the hair had
already been submitted for testing, but because the MSP did not have the capability
to conduct the test itself, the hair had to be sent to the FBI. And the prosecutor did
not know how long it would take to conduct the test. The prosecutor further argued
that, in any event, the test results would not be exculpatory because McClintock had
reported being raped by two men, and thus a pubic hair from a second man would
not exonerate King. The court did not believe that the hair evidence was “relevant,”
but it nonetheless instructed the prosecutor to “find out” whether the lab had
completed its testing of the hair. {Id., PageID.363.) It appears that the court later
entered an order requiring that the hair be tested. {See ECF No. 9-13, PageID.374.)
On the first morning of trial, the prosecution provided to defense counsel a
report from the MSP that the pubic hair had still not been tested. Defense counsel
then moved to exclude McClintock’s other-acts testimony due to the failure to test
the hair as the court had previously ordered. The prosecutor responded that the hair
had been sent out to be tested, but the testing had not yet been completed. The trial
court denied King’s motion to exclude McClintock’s testimony, and it indicated its
4

Case 4:19-cv-10091-MFL-EAS ECF No. 11, PagelD.1277 Filed 04/22/20 Page 5 of 18

intention to proceed with trial that day. (See id., PagelD.373-376.) The following
morning, King requested a jury instruction directing the jury to presume that the
testing of the hair would have been unfavorable to the prosecution, and the trial court
denied that request. (See ECF No. 9-14, PageID.518-520.)
At trial, Long testified that on August 5, 2005, King forcibly sexually
assaulted her multiple times after she accepted a ride in his van. Long explained that
she only agreed to the ride because there was another woman inside the van. King
then dropped that woman off at a store, drove Long to a secluded spot at a gas station,
and forcibly raped her.
After this alleged assault, King picked up several other men. They drove to an
industrial area of Detroit where King and the other men stole copper piping from a
building. Long testified that King then sexually assaulted her a second time in a
residential neighborhood while the other men unloaded the stolen materials. King
suggested that all of the other men would be given a turn with Long, and Long ran
from the van. She flagged down police officers, and the officers drove Long to
Detroit Receiving Hospital, where the rape kit was performed.
An MSP lab technician testified to the process that led to King being identified
as the man who assaulted Long through DNA testing.
McClintock testified that she was raped by two unknown men on August 16,
2014. She said that her mother dropped her off that morning at a friend’s house in
5

Case 4:19-cv-10091-MFL-EAS ECF No. 11, PagelD.1278 Filed 04/22/20 Page 6 of 18

Pontiac while she (McClintock) was detoxing from a heroin addiction. The friend
gave her a pill to help her with withdrawal symptoms, and McClintock fell asleep.
The next thing McClintock knew, she woke up on a couch in a house in Detroit. The
house was full of people. Two men, an older man and a younger man, took
McClintock into a bedroom where they raped her. They then drove her to a
commercial street and dropped her off. McClintock called her mother who drove her
to a hospital where a rape kit was performed. While McClintock was able to describe
the assault, she did not identify King as one of the men that raped her. The jury was
told that King had been connected to the McClintock assault by the DNA testing
described above conducted by the second lab technician.
King testified in his own defense. He said that he frequently did business with
prostitutes, and that he would compensate them with money and drugs in exchange
for sex. He admitted to having sex with both Long and McClintock. He said the sex
in both cases was consensual. He testified that he paid Long forty dollars for sex.
He then testified that he and his son picked up McClintock on the street, had sex,
and later dropped her off. He denied being at a house in Detroit with lots of people,
and he suggested that the alleged assault that McClintock described might have
occurred after he and his son dropped her off. King’s son, however, did not testify
to corroborate King’s story.

6

Case 4:19-cv-10091-MFL-EAS ECF No. 11, PagelD.1279 Filed 04/22/20 Page 7 of 18

The jury found King guilty of two counts of criminal sexual conduct and
kidnapping.
Prior to sentencing, the prosecutor received the results of the DNA analysis
performed on the foreign pubic hair found during McClintock’s rape examination.
Those results showed that the hair belonged to a man named Ronald Lydiel Topps.
Topps did not have any other connection to Long’s trial or King’s conviction. At
the sentencing hearing, the prosecutor gave King’s counsel a copy of the test results
showing that the hair belonged to Topps. King’s counsel then indicated that he
planned to file a motion for new trial based on this new evidence, but it does not
appear that one was ever filed.
King filed a claim of appeal in the Michigan Court of Appeals. His brief on
appeal, filed by his appellate counsel, raised three claims:
I. Mr. King was denied due process when potentially
exculpatory evidence, which supported his theory of the
case, was not produced before or during trial.
II. Mr. King was entitled to have the jury given a negative
inference instruction regarding the material the
government had in its possession for years, but failed to
test.
III. Defendant-appellant is entitled to be resentenced as his
current sentence is contrary to Const 1963, art 1, § 16, and
his guidelines were incorrectly scored.
The Michigan Court of Appeals affirmed King’s conviction in an unpublished
opinion. See People v. King, 2018 WL 1972792 (Mich. Ct. App. Apr. 26, 2018).
7

Case 4:19-cv-10091-MFL-EAS ECF No. 11, PagelD.1280 Filed 04/22/20 Page 8 of 18

King subsequently filed an application for leave to appeal in the Michigan Supreme
Court raising the same claims that he raised in the Michigan Court of Appeals. The
Michigan Supreme Court denied the application in a standard form order. See People
v. King, 919 N.W.2d 58 (Mich. 2018) (Table).
II
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”)
requires federal courts to uphold state court adjudications on the merits unless the
state court’s decision (1) “was contrary to, or involved an unreasonable application
of, clearly established Federal law, as determined by the Supreme Court of the
United States,” or (2) “was based on an unreasonable determination of the facts in
light of the evidence presented in the State court proceeding.” 28 U.S.C. § 2254(d).
“The question under AEDPA is not whether a federal court believes the state court’s
determination was incorrect but whether that determination was unreasonable—a
substantially higher threshold.” Schriro v. Landrigan, 550 U.S. 465, 473 (2007).
Ill
A
King first asserts that the prosecution violated his due process rights under the
Supreme Court’s decision in Brady v. Maryland, 373 U.S. 83 (1963), when it
withheld exculpatory evidence by failing to timely submit the pubic hair found
during McClintock’s rape kit for DNA testing. In Brady, the Supreme Court held
8

Case 4:19-cv-10091-MFL-EAS ECF No. 11, PagelD.1281 Filed 04/22/20 Page 9 of 18

that the state has a duty to disclose exculpatory evidence to the defense under the
Due Process Clause.

“There are three components to a Brady violation: The

evidence at issue must be favorable to the accused, either because it is exculpatory,
or because it is impeaching; that evidence must have been suppressed by the State,
either willfully or inadvertently; and prejudice must have ensued.” Strickler v.
Greene, 527 U.S. 263, 281-82 (1999). King asserts that because the hair was later
identified as belonging to a Topps, and not his son, the test result supported his trial
defense that McClintock may have been raped by two men after he and his son had
consensual sex with her.
The Michigan Court of Appeals considered this claim on direct review and
rejected it:
[Pjrior to trial, defendant asked the trial court to order the
lab to complete DNA testing on a pubic hair that was
found in the prior victim’s underwear or vaginal opening
during the rape kit collection. At that time, the prosecution
had already submitted the hair for testing to the lab, but the
testing had not yet been completed. Defense counsel
acknowledged this and conceded that the prosecutor had
not acted in bad faith—the order sought would only have
compelled the lab to complete its work. Further,
defendant’s DNA was found inside the prior victim’s
vagina. Although the trial court questioned the relevancy
of the test, which is understandable due to the prior
victim’s assertion that two men had assaulted her and that
defendant’s DNA already had been found in her, the trial
court nonetheless ordered the lab to complete the testing.
Immediately before trial, the prosecution acknowledged
that the testing was not then complete. The trial court ruled
9

Case 4:19-cv-10091-MFL-EAS ECF No. 11, PagelD.1282 Filed 04/22/20 Page 10 of 18

that it would proceed with trial, despite the results being
unavailable. In the alternative, defendant moved to
exclude the prior victim’s testimony considering the
results were not available; however, the trial court denied
this request, acknowledging that the issue related to
admissibility of the other acts had been previously
decided. After trial and during sentencing, the prosecution
provided defendant with the final results of the pubic hair
testing, which identified it as belonging to a person other
than defendant.
First, the prosecution did not suppress evidence, and
defendant was not denied due process. It is undisputed that
the prosecution did not possess any test results until after
trial. As a result, it is clear that the prosecution did not
possess and suppress any evidence that was favorable to
defendant. At the time of trial, the prosecution had
disclosed the existence of the pubic hair, which was all the
prosecution had available to it. Moreover, there was no
evidence that the prosecution engaged in any misconduct
or bad faith by delaying having the hair tested. Indeed,
defendant acknowledged at the time that the prosecution
was not acting in bad faith. Accordingly, defendant’s dueprocess challenge fails. See also People v. Coy, 258 Mich.
App. 1,21 (2003) (“Absent a showing of suppression of
evidence, intentional misconduct, or bad faith, the
prosecutor and the police are not required to test evidence
to accord a defendant due process.”).
Defendant has also failed to prove the second and third
prongs of the Brady requirements—that the evidence was
favorable to his defense and there was a reasonable
probability that there would have been a different outcome
had the evidence been presented. Chenault, 495 Mich, at
150. Importantly, notwithstanding the additional
contributor, defendant’s DNA was still found in the prior
victim’s vagina. The prior victim testified that two men
had raped her, so the identification of an additional subject
only served to corroborate her testimony. Defendant
merely contends that he may have been able to attack the
10

Case 4:19-cv-10091-MFL-EAS ECF No. 11, PagelD.1283 Filed 04/22/20 Page 11 of 18

prior victim’s credibility during cross-examination had he
had the information; however, as the prior victim had
already established a second party to the rape, we are
unable to glean any additional facts that would have
allowed her to be further challenged had the evidence been
available to defendant. Lastly, defendant contends that he
could have “possibly uncovered information consistent
with [his] defense” had he been provided with the results.
This general statement does not meet his burden to
demonstrate that it was reasonably probable that, had he
had the results, the outcome of the trial would have been
different. Accordingly, we hold that defendant is not
entitled to any relief.
King, 2018 WL 1972792, at

**

1-2.

The Michigan Court of Appeals’ decision was not contrary to, or an
unreasonable application of, clearly established federal law. It was not unreasonable
for the state appellate court to conclude that the prosecutor did not violate Brady
because the only the evidence that the prosecutor had at the time of trial - that a
foreign hair was recovered from McClintock’s rape kit - was disclosed to the
defense. Evidence that the hair belonged to Topps was not suppressed because that
evidence did not exist at the time of trial. And when the test results on the hair came
back and revealed that the hair belonged to Topps, that evidence was also disclosed
to the defense. Moreover, King has not cited any clearly established Supreme Court
law that under these circumstances, a prosecutor had a duty to test the hair at issue
any sooner than the prosecution did. Finally, King has not shown that the Michigan
Court of Appeals’ unreasonably concluded that the prosecution did not act in bad
11

Case 4:19-CV-10091-MFL-EAS ECF No. 11, PagelD.1284 Filed 04/22/20 Page 12 of 18

faith. Indeed, King’s own counsel stated on the record that the prosecution did not
act in bad faith with respect to the testing of the hair.
For all of these reasons, King is not entitled to federal habeas relief on this
claim.
B
King next asserts that the trial court erred when it failed to instruct the jury
that it should presume that the DNA testing on the pubic hair would have been
unfavorable to the prosecution. The Michigan Court of Appeals considered this
claim on direct review and rejected it:
Defendant argues that because the prosecution failed to
test and provide the results of all of the DNA evidence
from the prior victim’s rape kit, the trial court erred when
it failed to provide a negative inference jury instruction.
We disagree. “Jury instructions that involve questions of
law are also reviewed de novo.” People v. Gillis, 474
Mich. 105,113; 712 N.W.2d419 (2006). However, “atrial
court’s determination whether a jury instruction is
applicable to the facts of the case is reviewed for an abuse
of discretion.” Id.
A criminal defendant has the right to have a properly
instructed jury consider the evidence against him. People
v. Wood, 307 Mich. App. 485, 519; 862 N.W.2d 7 (2014),
vacated in part on other grounds 498 Mich. 914 (2015).
“This Court reviews jury instructions as a whole to
determine whether error requiring reversal occurred.” Id.
“The jury instructions must include all elements of the
charged offenses, and must not omit material issues,
defenses, or theories that the evidence supports.” Id.

12

Case 4:19-cv-10091-MFL-EAS ECF No. 11, PagelD.1285 Filed 04/22/20 Page 13 of 18

“Michigan courts have long recognized that when material
evidence in control of a party is not produced at trial, the
opposing party is entitled to an adverse inference
instruction.” People v. Cress, 250 Mich. App. 110, 157
n.27; 645 N.W.2d 669 (2002), rev’d on other grounds 468
Mich. 678 (2003). An adverse inference instruction allows
the jury to infer that the evidence, although not presented
at trial, would have been not favorable to the party who
was supposed to present the evidence. See, e.g., M Crim JI
5.12 (instruction that permits the jury to infer that a
missing witness would have testified unfavorably to the
prosecution when the prosecution was responsible for
producing the witness). However, such an instruction is
only permitted when the prosecutor acts in bad faith.
Cress, 250 Mich. App. at 157-158; People v. Davis, 199
Mich. App. 502, 514-15; 503 N.W.2d 457 (1993),
overruled on other grounds by People v. Grissom, 492
Mich. 296 (2012). As stated above, there was no evidence
to show that the prosecution acted in bad faith when it did
not produce the testing results by the time of trial.
Accordingly, the trial court did not err when it declined to
provide the adverse inference instruction to the jury.
King, 2018 WL 1972792, at ** 2-3.
The Michigan Court of Appeals’ decision was not contrary to, or an
unreasonable application of, clearly established federal law.

For the reasons

discussed above, the state court did not unreasonably conclude that the prosecution
did not act in bad faith when it failed to have the hair tested earlier than it did. And
King has not identified any clearly established Supreme Court precedent that entitled
him to an adverse inference instruction under these circumstances.
For all of these reasons, King is not entitled to federal habeas relief on this
claim.
13

Case 4:19-cv-10091-MFL-EAS ECF No. 11, PagelD.1286 Filed 04/22/20 Page 14 of 18

C
Finally, King makes two arguments with respect his sentence. He primarily
argues that the state trial court incorrectly scored the sentencing guideline offense
variables. But King’s claim that the state-court incorrectly scored the guidelines is
not cognizable on federal habeas review. See Howard v. White, 76 F. App’x 52, 53
(6th Cir. 2003) (“A state court’s alleged misinterpretation of state sentencing
guidelines and crediting statutes is a matter of state concern only” and “federal
habeas corpus relief does not lie for errors of state law”).
King also argues that his sentence violates the Eighth Amendment. The
Michigan Court of Appeals considered this claim on direct review and rejected it:
Defendant contends that his sentence is cruel or unusual
because the term exceeds his natural life expectancy, and
thus, the sentence equates to a life sentence without parole,
and the trial court failed to consider mitigating factors. We
disagree.
A defendant must “advance a claim below that his
sentences were unconstitutionally cruel or unusual” to be
preserved. [.People v. Bowling, 299 Mich. App.] at 557.
Defendant failed to object during sentencing that his
sentence was cruel or unusual; therefore, the issue is
unpreserved. See Id. Accordingly, we review this
unpreserved constitutional issue for plain error affecting
defendant’s substantial rights. Id.
The United States Constitution prohibits cruel and unusual
punishment, U.S. Const. Am. VIII, while the Michigan
Constitution prohibits cruel or unusual punishment, Const.
1963, art. 1 § 16. Thus, Michigan’s Constitution affords
more protection than the United States Constitution. See
14

Case 4:19-cv-10091-MFL-EAS ECF No. 11, PagelD.1287 Filed 04/22/20 Page 15 of 18

People v. Benton, 294 Mich. App. 191, 204; 817 N.W.2d
599 (2011). In other words, “[i]f a punishment passes
muster under the state constitution, then it necessarily
passes muster under the federal constitution.” Id.
(quotation marks and citation omitted). “In deciding if
punishment is cruel or unusual, this Court looks to the
gravity of the offense and the harshness of the penalty,
comparing the punishment to the penalty imposed for
other crimes in this state, as well as the penalty imposed
for the same crime in other states.” Bowling, 299 Mich.
App. at 557-558. Explained another way, a sentence
constitutes cruel or unusual punishment when it is grossly
disproportionate to the seriousness of the circumstances
surrounding the offense and the offender. People v.
Bullock, 440 Mich. 15, 32; 485 N.W.2d 866 (1992);
People v. Milbourn, 435 Mich. 630, 636; 461 N.W.2d 1
(1990). Further, “a sentence within the guidelines range is
presumptively proportionate, and a sentence that is
proportionate is not cruel or unusual punishment.” People
v. Powell, 278 Mich. App. 318, 323; 750 N.W.2d 607
(2008) (citations omitted).
Here, defendant was sentenced to a minimum term of
imprisonment of 40 years, or 480 months. His guidelines
range for his minimum sentence was 270 to 900 months.
Thus, defendant was sentenced within the guidelines
range, which makes his sentence presumptively
proportionate and not cruel or unusual. Nothing in the
record negates the presumption of proportionality, as
defendant’s sentence was proportionate to the seriousness
of circumstances surrounding the offense and the offender.
Defendant contends that his sentence is cruel or unusual
because he will likely die before being eligible for parole.
However, defendant incorrectly assumes that he is entitled
to parole. See People v. Merriweather, 447 Mich. 799,
808; 527 N.W.2d 460 (1994) (stating that Michigan law
does not support the contention that all defendants are
entitled to parole); Bowling, 299 Mich. App. at 558.
Furthermore, a defendant’s age is insufficient to overcome
the presumptive proportionality of his sentences,
15

Case 4:19-cv-10091-MFL-EAS ECF No. 11, PagelD.1288 Filed 04/22/20 Page 16 of 18

especially when considering a defendant’s “lengthy
criminal record and the gravity of his offenses.” Bowling,
299 Mich. App. at 558-559. Here, there is no question that
the offense of CSC-I “is a serious offense.” People v.
Fultz, 453 Mich. 937; 554 N.W.2d 725 (1996).
Considering this particular case, the offense was horrific.
Defendant repeatedly sexually assaulted the victim over
many hours, keeping her confined in his van. He told the
victim that after he assaulted her one more time, he was
going to allow the other men to get their “turn,” which
reasonably made the victim believe she was going to be
gang raped. And considering the offender, defendant had
a very extensive history, including 15 convictions, of
which at least nine were felonies, including assault with a
deadly weapon, carrying a concealed weapon, and a
federal weapons conviction.
Moreover, we note that defendant also has failed to show
that his sentences are cruel or unusual compared to the
penalties imposed for other crimes in this state or for the
same crimes in other states. Bowling, 299 Mich. App. at
559, citing People v. Brown, 294 Mich. App. 377, 390;
811 N.W.2d 531 (2011); see also People v. Masroor, 313
Mich. App. 358,400; 880 N.W.2d 812 (2015), aff d in part
and rev’d in part on other grounds People v. Steanhouse,
500 Mich. 453 (2017).
King, 2018 WL 1972792, at ** 5-6.
King has not shown that the Michigan Court of Appeals’ decision was
contrary to, or an unreasonable application of, clearly established federal law.
Indeed, King has not even attempted to show how the Michigan court’s analysis or
conclusion contravenes any decision issued by the United States Supreme Court, nor
has he tried to show how any United States Supreme Court decision compels relief

16

Case 4:19-cv-10091-MFL-EAS ECF No. 11, PagelD.1289 Filed 04/22/20 Page 17 of 18

from his sentence. Under these circumstances, King is not entitled to habeas relief
on his Eighth Amendment claim.
As none of King’s claims merit relief, the Court will deny his petition.
IV
In order to appeal the Court’s decision, King must obtain a certificate of
appealability. To obtain a certificate of appealability, a habeas petitioner must make
a substantial showing of the denial of a constitutional right. See 28 U.S.C. §
2253(c)(2). To demonstrate this denial, the petitioner is required to show that
reasonable jurists could debate whether the petition should have been resolved in a
different manner, or that the issues presented were adequate to deserve
encouragement to proceed further. See Slack v. McDaniel, 529 U.S. 473, 483-84
(2000). Here, jurists of reason would not debate the Court’s conclusion that King
has failed to demonstrate entitlement to habeas relief with respect to each of his
claims. Therefore, the Court will deny King a certificate of appealability.
The standard for granting an application for leave to proceed in forma
pauperis on appeal is a lower standard than the standard for a certificate of
appealability. See Foster v. Ludwick, 208 F.Supp.2d 750, 764 (E.D. Mich. 2002)
(citing United States v. Youngblood, 116 F.3d 1113, 1115 (5th Cir. 1997)). While a
certificate of appealability may only be granted if a petitioner makes a substantial
showing of the denial of a constitutional right, a court may grant in forma pauperis
17

Case 4:19-cv-10091-MFL-EAS ECF No. 11, PagelD.1290 Filed 04/22/20 Page 18 of 18

status on appeal if it finds that an appeal is being taken in good faith. See id. at 764765; 28 U.S.C. § 1915(a)(3); Fed. R. App. 24(a).
Here, the Court concludes that an appeal could be taken in good faith. King
may therefore proceed in forma pauperis on appeal.
V

For the reasons set forth above, the Court DENIES King’s petition for writ of
habeas corpus (ECF No. 1).
The Court further DENIES King a certificate of appealability, but it
GRANTS him leave to appeal in forma pauperis.
IT IS SO ORDERED.

Dated: April 22, 2020

s/Matthew F. Leitman
MATTHEW F. LEITMAN
UNITED STATES DISTRICT JUDGE

I hereby certify that a copy of the foregoing document was served upon the
parties and/or counsel of record on April 22, 2020, by electronic means and/or
ordinary mail.

s/Holly A. Monda
Case Manager
(810)341-9764

18

*
vr

APPENDIX B

THE SEPTEMBER 9, 2020, ORDER OF THE
SIXTH CIRCUIT COURT OF APPEALS
DENYING PETITIONER’S MOTION FOR
CERTIFICATE OF APPEALABILITY0CTOBER
5, 2015, JUDGMENT OF SENTENCE OF THE
WAYNE COUNTY CIRCUIT COURT

2

,

Case: 20-1521

Document: 5-2

Filed: 09/09/2020

Page: 1

No. 20-1521
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED
WILLIAM RANDOLPH KING,
Petitioner-Appellant,
v.
O’BELL T. WINN, Warden named as State of
Michigan,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)
)

Sep 09, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: SUHRHEINRICH, Circuit Judge.

William Randolph King, a pro se Michigan prisoner, appeals a district court judgment
denying his petition for a writ of habeas corpus filed pursuant to 28 U.S.C. § 2254 and moves this
court for a certificate of appealability (“COA”).
In 2016, a jury found King guilty of first-degree criminal sexual conduct (“CSC”), Mich.
Comp. Laws § 750.520b(l)(c), kidnapping, Mich. Comp. Laws § 750.349, and third-degree CSC,
Mich. Comp. Laws § 750.520d(l)(b). He was sentenced as a fourth habitual offender, Mich.
Comp. Laws § 769.12, to forty to seventy-five years in prison for his first-degree CSC conviction
and twenty to forty years in prison for his kidnapping and third-degree CSC convictions. The
Michigan Court of Appeals affirmed, People v. King, No. 335606, 2018 WL 1972792 (Mich. Ct.
App. Apr. 26,2018) (per curiam), and the Michigan Supreme Court denied leave to appeal, People
v. King, 919 N.W.2d 58 (Mich. 2018) (mem.).
King then filed the present § 2254 petition, claiming that: (1) the prosecutor withheld
exculpatory evidence, in violation of his due process rights under Brady v. Maryland, 373 U.S. 83
(1963); (2) the trial court failed to give an adverse-inference jury instruction with respect to

Case: 20-1521

Document: 5-2

Filed: 09/09/2020

Page: 2

No. 20-1521
-2evidence that the prosecutor allegedly withheld; and (3) the trial court erred when it scored the
sentencing guidelines, and sentenced him in violation of the Eighth Amendment.
The district court denied the petition and declined to issue a COA, reasoning that King’s
claims were reasonably adjudicated on the merits by the state courts or were not cognizable on
federal habeas review.
A COA may issue “only if the applicant has made a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). The petitioner must demonstrate “that jurists of
reason could disagree with the district court’s resolution of his caseor that jurists could conclude
the issues presented were adequate to deserve encouragement to proceed further.” Miller-El v.
Cockrell, 537 U.S. 322, 327 (2003). If a state court previously adjudicated the petitioner’s claims
on the merits, the district court may not grant habeas relief unless the state court’s adjudication
“resulted in a decision that was contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme Court of the United States; or resulted in a
decision that was based on an unreasonable determination of the facts in light of the evidence
presented in the State court proceeding. 28 U.S.C. § 2254(d); see Harrington v. Richter, 562 U.S.
86, 100(2011).
Claim One
King’s first claim is that the prosecutor violated his due process rights under Brady when
he, in bad faith, withheld allegedly exculpatory evidence. In particular, King claims that the
prosecutor failed to timely submit for DNA testing a pubic hair that had been collected from
Nichole McClintock, a sexual assault victim who testified at King’s trial as a witness pursuant to
Michigan Rule of Evidence 404(b) . According to King, this evidence would support his theory
that McClintock and the victim in his case were prostitutes and had consensual sex with him. He
further claims that the evidence would support his defense insofar as the pubic hair found on
McClintock belonged to another individual.
To establish a Brady violation, a petitioner must prove that: (1) the prosecutor suppressed
evidence that was not known to the petitioner and was not available from another source; (2) such

Case: 20-1521

Document: 5-2

Filed: 09/09/2020

Page: 3

No. 20-1521
-3 evidence was favorable to the defense; and (3) the suppressed evidence was material. Carter v.
Bell, 218 F.3d 581, 601 (6th Cir. 2000). “[E]vidence is material only if there is a reasonable
probability that, had the evidence been disclosed to the defense, the result of the proceeding would
have been different.” Id. (alteration in original) (quoting United States v. Bagley, 473 U.S. 667,
682(1985)).
The Michigan Court of Appeals rejected this claim. King, 2018 WL 1972792, at * 1-2. It
noted that, before trial, the prosecution had ordered the lab to conduct a DNA test on the pubic
hair found on McClintock, but the testing had not been completed when the trial began. Id. at * 1 2. The Michigan Court of Appeals then determined that the prosecution did not suppress evidence
and that King was not denied due process under Brady. Id. at *2. It first explained that the
prosecution undisputedly did not possess any test results regarding the pubic hair until after trial,
and therefore it could not have suppressed any evidence that might have been favorable to King.
Id. The court added that there was no evidence that the prosecution acted in bad faith in delaying
the DNA testing; indeed, King’s counsel acknowledged that the prosecution did not act in bad faith
in this respect. See id. at *1-2.
The Michigan Court of Appeals then determined that King failed to show that “the
evidence was favorable to his defense [or that] there was a reasonable probability that there would
have been a different outcome had the evidence been presented.” Id. at *2. It explained that—
notwithstanding the pubic hair that was found on McClintock, which was later determined to
belong to another individual—King’s DNA was also found in McClintock’s vagina. Id. The court
added that King’s claim that he “could have ‘'possibly uncovered information consistent with [his]
defense’ had he been provided with the [DNA test] results” before trial failed to show that “it was
reasonably probable that, had he had the results, the outcome of the trial would have been
different.” Id. (first alteration in original).
King does not dispute that the prosecution did not have the DNA test results in its
possession before trial. He therefore cannot satisfy the first Brady prong: the prosecution could
not have suppressed evidence that it did not have in its possession. Similarly, as set forth above,

Case: 20-1521

Document: 5-2

Filed: 09/09/2020

Page: 4

No. 20-1521
-4King’s counsel conceded that the prosecution did not act in bad faith when it delayed testing the
pubic hair found on McClintock. And King cannot show that the evidence was material or would
have been favorable to his defense insofar as his DNA was also collected from McClintock’s
vagina; the presence of another individual’s pubic hair on McClintock would have little or no
bearing on his guilt with respect to his sexual assault upon the victim in his case. On this record,
no reasonable jurist could debate the district court’s conclusion that the Michigan Court of
Appeals’ adjudication of King’s Brady claim was not contrary to or an unreasonable application
of clearly established federal law or based on an unreasonable determination of the facts.
Claim Two
Next, King claims that the trial court erred when it failed to instruct the jury that the test
results from the pubic hair that was collected from McClintock would have been unfavorable to
the prosecution.
In rejecting this claim, the Michigan Court of Appeals reasoned that, because the
prosecution undisputedly did not act in bad faith when it did not produce the DNA results before
trial, an adverse inference instruction was unwarranted. Id. at *3. Indeed, as set forth above in the
analysis of Claim One, King’s counsel admitted that the prosecution did not act in bad faith when
it did not produce before trial the DNA results from the pubic hair that was collected from
McClintock. And King has not shown that omitting an adverse inference instruction with respect
to this unproduced evidence “so infected the entire trial that the resulting conviction violates due
process.” Estelle v. McGuire, 502 U.S. 62, 72 (1991) (quoting Cupp v. Naughten, 414 U.S. 141,
147 (1973)). No reasonable jurist therefore could debate the district court’s conclusion that the
Michigan Court of Appeals’ rejection of this claim was not contrary to or an unreasonable
application of clearly established federal law or based on an unreasonable determination of the
facts.

Case: 20-1521

Document: 5-2

Filed: 09/09/2020

Page: 5

No. 20-1521
-5Claim Three
Lastly, King challenges his sentence, claiming that the trial court erred when scoring his
offense variables under the state sentencing guidelines and that his sentence violates the Eighth
Amendment.
Reasonable jurists could not debate the district court’s rejection of the first portion of this
claim on the ground that it raises a question of state law that is not cognizable on federal habeas
review. See Howard v. White, 76 F. App’x 52, 53 (6th Cir. 2003) (“A state court’s alleged
misinterpretation of state sentencing guidelines ... is a matter of state concern only.”); see also
Bradshaw v. Richey, 546 U.S. 74, 76 (2005) (“[A] state court’s interpretation of state law... binds
a federal court sitting in habeas corpus.”).
Reasonable jurists also could not debate the district court’s denial of the second portion of
this claim—i.e., that his sentence amounts to a cruel and unusual punishment.
On direct appeal, King argued that his sentence violates the Eighth Amendment because
the term exceeds his life expectancy and because the trial court failed to consider mitigating
factors. The Michigan Court of Appeals rejected these arguments. King, 2018 WL 1972792,
at *4-6. It first explained that King’s sentence fell within the applicable guidelines range, thereby
rendering his sentence “presumptively proportionate and not cruel or unusual.” Id. at *5. The
Michigan Court of Appeals then rejected King’s argument that his sentence is cruel and unusual
because he will likely die before becoming eligible for parole, reasoning that King is not
automatically entitled to parole. Id. (citing People v. Merriweather, 527 N.W.2d 460, 464 (Mich.
1994)). The court added that King’s sentence was warranted in view of his lengthy criminal record
and the “horrific” nature of the offenses. Id. Finally, the Michigan Court of Appeals rejected
King’s argument that the trial court, when sentencing him, erroneously failed to consider
mitigating factors—namely, his mental health history and the fact that he did not use a firearm or
make a threat while assaulting the victim. Id. at *6. It explained that the trial judge in fact was
aware of these and other mitigating factors insofar as he presided over King’s trial and reviewed
the sentence investigation report before he sentenced King. Id.

/Case: 20-1521

Document: 5-2

Filed: 09/09/2020

Page: 6

No. 20-1521
-6King has not shown by “clear and convincing evidence” that the factual findings made by
the state courts with respect to the foregoing issues are incorrect. See 28 U.S.C. § 2254(e)(1). In
addition, King’s sentence falls within the maximum penalty authorized by the relevant statutes,
see Mich. Comp. Laws §§ 750.520b(2), 750.349(3), 750.520d(2), and 769.12, and therefore it does
not constitute a cruel and unusual punishment. See Austin v. Jackson, 213 F.3d 298, 302 (6th Cir.
2000) (citing United States v. Organek, 65 F.3d 60, 62 (6th Cir. 1995)). Reasonable jurists
therefore could not debate the district court’s conclusion that the state court’s rejection of King’s
Eighth Amendment sentencing claim was not contrary to, and did not involve an unreasonable
application of, clearly established federal law.
Accordingly, the court DENIES the motion for a COA.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

